1

No. 20-107

In the

Supreme Court of the United States
CEDAR POINT NURSERY AND FOWLER
PACKING CO.,
Petitioners,
V

VICTORIA HASSID, in her official capacity as Chair
of the Agricultural Labor Relations Board, et aI.,
Respondents.

Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit

On

CERTIFICATE OF SERVICE

I, Henry M. Willis, a member of the Bar of this
Court, do hereby certifii pursuant to Supreme Court
Rules 29.3,29.5, and 37.5 that I have, this 11th day of
February,202I, caused to be served three (3) copies of
the Brief of the United Food and Commercial Workers
Western States Council and Teamsters Joint Council
7 as Amici Curiae in Support of Respondents in this
proceeding by causing them to be served by UPS Next
Day Service, addressed to counsel ofrecord at the
addresses listed below:
Joshua P. Thompson
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
(e16) 4re-7lrt
JThomp son@p acificle gal. or g
Counsel for Petition ers

2

Joshua Patashnik
Deputy Solicitor General
State of California Department of Justice
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94L02-7 004
(415) 510-3896
Josh. Patashnik@doj.ca. gov
Counsel for Respon dents

I further certify that, pursuant to Supreme
Court Rule 29.3, I have caused electronic copies of the
brief to be served on the parties at the email
addresses listed above.

I further certifir that all persons required to be
served have been served.

February LI,202I
Henry

Willis

Counsel of Record
Schwartz, Steinsapir,
Dohrmann & Sommers
6300 Wilshire Blvd.
Suite 2000
Los Angeles, CA 90048
(323) 655-4700
hmw@ssdslaw.com

LLP

Counsel for amici curiae

